         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       EPA Needs to Better Document
       Project Delays for Recovery Act
       Diesel Emission Reduction Act
       Grants
       Report No. 11-R-0179

       March 28, 2011
Report Contributors:                               Andrés Calderón
                                                   Janet Kasper
                                                   Les Partridge
                                                   Nicole Pilate
                                                   Matthew Simber
                                                   Wendy Swan




Abbreviations

ARRA 	         American Recovery and Reinvestment Act
DERA 	         Diesel Emission Reduction Act; also refers to the U.S. Environmental Protection
               Agency Diesel Emissions Reduction Program
EPA 	          U.S. Environmental Protection Agency
OAR 	          Office of Air and Radiation
OARM	          Office of Administration and Resources Management
OGD 	          Office of Grants and Debarment
OIG 	          Office of Inspector General
OMB 	          Office of Management and Budget
ORBIT 	        Office of the Chief Financial Officer Reporting and Business Intelligence Tool


Cover photo:     School buses, which are often a source of diesel emissions. (EPA photo)
                       U.S. Environmental Protection Agency 	                                              11-R-0179
                                                                                                       March 28, 2011
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment

Why We Did This Review           EPA Needs to Better Document Project Delays for
The Office of Inspector          Recovery Act Diesel Emission Reduction Act Grants
General (OIG) conducted this
                                  What We Found
audit to determine whether the
U.S. Environmental Protection    While DERA project officers were aware of Recovery Act grant project delays,
Agency (EPA) successfully        they did not always document delays in EPA’s grants management system or, in
used its grants management       some cases, take action to reduce the impact of project delays. To prompt quicker
tools to identify and mitigate   action from recipients on Recovery Act grants, EPA had stated to the Office of
project delays in American       Management and Budget in March 2009 that all grants would have an initial project
Recovery and Reinvestment        period through September 30, 2010. EPA’s goal was to have 40 percent of the
Act of 2009 (Recovery Act)       Recovery Act grant funds expended by September 30, 2010, which was met.
Diesel Emission Reduction        However, as of June 30, 2010, 49 grants, with a value of $101,437,442, had less
Act (DERA) grants.               than 10 percent of the funds expended. Eighty-five percent of the grantees did not
                                 finish projects by the completion date, and EPA granted no-cost time extensions for
Background                       all those grantees. In granting the extensions, 3 of 15 grants we reviewed did not
                                 contain new timeframes for completing the projects. EPA guidance requires
The Recovery Act provided        timeframes to be established, and timeframes can be used to assess progress and
the EPA Diesel Emissions         reduce the impact of project delays.
Reduction Program (known as
DERA) with $300 million to       Even though grant recipients reported project delays to EPA in progress reports, in
maximize job preservation and    10 of 15 cases reviewed, project officers did not document these delays in
create economic recovery         programmatic baseline monitoring reports. DERA staff believed the delays were
through a variety of diesel      outside the control of the recipients and that no-cost time extensions were the
emission reduction strategies.   appropriate corrective action. However, EPA did not take sufficient action in some
To accomplish its objective,     cases by establishing new milestone dates and instituting corrective actions when
EPA awarded $244 million via     approving grant extensions. Delayed projects may result in recipients not
grants under the State and       completing projects within specified timeframes and delayed achievement of
National Clean Diesel            Recovery Act objectives.
Funding Assistance Programs.
                                  What We Recommend
                                 We recommend that the Assistant Administrator for Administration and Resources
For further information,         Management revise the baseline and advanced monitoring report questions and
contact our Office of            corresponding guidance. We recommend that the Assistant Administrator for Air
Congressional, Public Affairs
and Management at                and Radiation verify that project officers document delays in baseline and advanced
(202) 566-2391.                  monitoring reports, and institute corrective actions when delays occur. We also
                                 recommend that the Assistant Administrator for Air and Radiation require project
The full report is at:           officers to regularly report to management on the progress of projects and status of
www.epa.gov/oig/reports/2011/    corrective actions. EPA agreed with the OIG’s recommendations. The Office of Air
20110328-11-R-0179.pdf
                                 and Radiation, the Office of Administration and Resources Management, and the
                                 regions have worked together to improve guidance and oversight.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                              THE INSPECTOR GENERAL




                                          March 28, 2011

MEMORANDUM

SUBJECT:	 EPA Needs to Better Document Project Delays for Recovery Act
          Diesel Emission Reduction Act Grants
          Report No. 11-R-0179


FROM:	         Arthur A. Elkins, Jr.
               Inspector General

TO:	           Gina McCarthy
               Assistant Administrator for Air and Radiation

               Craig Hooks
               Assistant Administrator for Administration and Resources Management


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated direct labor and travel costs for this report are $219,112.

Action Required

In responding to the discussion draft report, the Agency provided a corrective action plan for
addressing the recommendations. Therefore, a response to the final report is not required. We
have no objections to the further release of this report to the public. The report will be available
at http://www.ega.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or Janet
Kasper, Product Line Director, at (312) 886-3059 or kasper.janet@epa.gov.
EPA Needs to Better Document Project Delays for                                                                              11-R-0179
Recovery Act Diesel Emission Reduction Act Grants




                                      Table of Contents 

   Purpose........................................................................................................................    1


   Background .................................................................................................................       1


   Scope and Methodology.............................................................................................                 2


   Results of Review .......................................................................................................          2


           Recovery Act and Monitoring of DERA Grants ....................................................                            3

           EPA Did Not Always Identify and Take Action to Reduce the Impact 

             of Project Delays .............................................................................................          4

           DERA Viewed Extensions as Appropriate Corrective Actions .............................                                     5

           Delayed Grants Diminish Effectiveness of Recovery Act .....................................                                5


   Recommendations ......................................................................................................             6


   Agency Response and OIG Comment ......................................................................                             6


   Status of Recommendations and Potential Monetary Benefits..............................                                            8




Appendices
   A       Details on Scope and Methodology..................................................................                         9


   B       Agency Response to Draft Report....................................................................                       11 


   C       Distribution .........................................................................................................    15 

Purpose
                   The Diesel Emissions Reduction Program (known as DERA) was one of six U.S.
                   Environmental Protection Agency (EPA) programs that received funding under
                   the American Recovery and Reinvestment Act of 2009 (Recovery Act). The act
                   provided $300 million for the DERA grants, of which $6 million could be used to
                   manage and oversee the grants. Our objective was to determine whether EPA
                   successfully used its grants management tools to identify and mitigate project
                   delays in Recovery Act DERA grants.

Background
                   The Recovery Act was signed into law on February 17, 2009, as a direct response
                   to the economic crisis. The Recovery Act was to:

                           Preserve and create jobs and promote economic recovery
                           Provide investments needed to increase economic efficiency by spurring
                            technological advances in science and health
                           Invest in transportation, environmental protection, and other infrastructure
                            that will provide long-term economic benefits

                   Regarding use of the funds, the Recovery Act stated that expenditures and
                   activities were to commence as quickly as possible, consistent with prudent
                   management.

                   Congress appropriated funding for DERA under the Energy Policy Act of 2005 to
                   reduce emissions from heavy-duty diesel engines in the existing fleet. The act
                   provided EPA grant authority to promote diesel emission reductions. Under the
                   Recovery Act, the National Clean Diesel Funding Assistance Program
                   competitively awarded a total of $156 million to 90 grant recipients to support
                   implementation of diesel reduction programs. The State Clean Diesel Program
                   awarded a total of $88 million to the 50 states plus the District of Columbia.1 The
                   states can use the funds to award additional grants.

                   As required by the Office of Management and Budget (OMB), EPA developed a
                   program plan that describes how funds would be used and managed. The DERA
                   plan stated that its goal was to expend all of the State and National Clean Diesel
                   money by September 30, 2010. In support of the goal, EPA established DERA
                   grant agreements with recipients containing a project end date of September 30,
                   2010.




1
    The awards were made via a formula and averaged about $1.73 million each.


11-R-0179                                                                                               1
Scope and Methodology
                 We conducted this audit in accordance with generally accepted government
                 auditing standards. Those standards require that we plan and perform the audit to
                 obtain sufficient, appropriate evidence to provide a reasonable basis for our
                 findings and conclusions based on our audit objectives. We believe that the
                 evidence obtained provides a reasonable basis for our conclusions based on our
                 audit objectives.

                 We selected 15 DERA Recovery Act grants in which substantial progress had not
                 been made using funds expended as of June 30, 2010, as an indicator of project
                 progress. We identified all grants with 90 percent of funds remaining and a
                 project and budget period end date of September 30, 2010. Forty-nine Recovery
                 Act grants in DERA’s State and National Funding Assistance Programs totaling
                 $101.4 million (or 42 percent of $244 million awarded to those programs) met
                 these criteria. To select our audit samples, we sorted the 49 grants and calculated
                 the number of grants in each region. We selected the two regions with the largest
                 number of grants that contained less than 10 percent of funds expended. Our
                 sample included seven grants in Region 3 and eight grants in Region 4. We
                 interviewed EPA DERA staff in headquarters and Regions 3 and 4; and we
                 reviewed project officer files, recipient progress reports, and quarterly reports
                 obtained from Recovery.gov. We also interviewed the DERA grant recipients
                 during site visits. We performed the audit from July 2010 to February 2011.
                 Appendix A contains additional scope and methodology details.

Results of Review
                 While DERA project officers were knowledgeable about project status and one
                 region developed a local system to track progress, DERA project officers did not
                 use the monitoring reports housed in the national grants management database to
                 identify and take action to reduce the impact of delays for EPA Recovery Act
                 DERA grants. To prompt quicker action from recipients on Recovery Act grants,
                 EPA stated to OMB in March 2009 that all grants would have an initial
                 completion date of September 30, 2010.2 As of June 30, 2010, 49 grants, with a
                 value of $101,437,442, had less than 10 percent of the funds expended.
                 Consequently, 85 percent of the grants did not meet the completion date, and EPA
                 granted no-cost time extensions for all those grantees. Further, in granting the
                 extensions, 3 of 15 grants we reviewed did not contain new timeframes for
                 completing the project. The Recovery Act required funds be put to use quickly,
                 and EPA’s Recovery Act plan for DERA required grant monitoring to be a key
                 component for monitoring project progress.



2
  The 49 grants that fell into our sample were from the State and National Clean Diesel Programs. Since no grants
from the other two programs (Emerging Technologies and SmartWay) fell into our sample, we did not evaluate
those programs.


11-R-0179                                                                                                           2
            Even though grant recipients reported project delays to EPA in progress reports,
            in 10 of 15 cases reviewed, project officers did not document these delays in
            programmatic baseline monitoring reports. DERA personnel did not view the
            delays as significant or requiring action because delays were outside the grant
            recipients’ control and the project period end date in the grant agreements was
            only intended to spur action. However, delays result in recipients not completing
            projects within specified timeframes and diminishing Recovery Act objectives.

            Recovery Act and Monitoring of DERA Grants

            EPA issued several documents to provide staff with guidance on what level of
            monitoring was needed for Recovery Act grants. EPA developed an Agency-level
            risk mitigation plan known as the Recovery Act Stewardship Plan, which details
            the Agency’s Recovery Act risk assessment, internal controls, and monitoring
            activities. The Recovery Act Assistance Agreement Post-Award Monitoring
            Strategy provides guidance for funding and monitoring Recovery Act grants.
            Baseline and advanced monitoring are important grants management tools for
            these grants. EPA Order 5700.6 A2 explains that baseline monitoring is the
            periodic review of a recipient’s progress in, and compliance with, a specific
            award’s scope of work, terms and conditions, and regulatory requirements.
            Baseline monitoring reports specifically ask whether recipients are meeting
            milestones and whether project officers believe the grant should be amended.
            Advanced monitoring is an in-depth assessment of a recipient’s (administrative
            and financial) or project’s (programmatic and technical) progress, management,
            and expectations. The relevant monitoring duties of the EPA offices and staff are
            listed in table 1.

            Table 1: Monitoring requirements
             Type of required monitoring               Responsible office/staff               Frequency
             Baseline administrative monitoring        Grants Management Office               Quarterly
             Advanced administrative monitoring        Office of Grants and Debarment         Annually
             Baseline programmatic monitoring          Project officer                        Quarterly
             Advanced programmatic monitoring          Project officer                        Annually
            Source: EPA’s Recovery Act Assistance Agreement Post-Award Monitoring Strategy.

            The Project Officer Manual emphasizes the importance of the project officer
            negotiating a project workplan. One component of the workplan is schedules and
            milestones for accomplishing the grant objectives. Section 8 of the post-award
            monitoring strategy calls on project officers to document issues identified during
            monthly drawdown or post-award monitoring reviews. When issues are identified,
            project officers are to “develop appropriate corrective action plans [and] ensure
            that recipients take necessary corrective actions in a timely manner.”




11-R-0179                                                                                                 3
            EPA Did Not Always Identify and Take Action to Reduce the Impact
            of Project Delays

            Project officers did not always identify in EPA’s management systems that
            projects were delayed, as required by the Office of Air and Radiation’s (OAR’s)
            DERA Grant Monitoring Plan. In some cases, EPA also did not take sufficient
            action in response to delays by establishing new milestone dates and instituting
            corrective actions when allowing grant extensions. Of the 141 EPA Recovery Act
            DERA grants, 120, or 85 percent, received a no-cost time extension beyond the
            September 30, 2010, grant end date (figure 1). Each recipient received a no-cost
            time extension of up to 1 year.
            Figure 1: DERA grant end dates met or extended




            Source: OIG analysis of EPA data.

            Our site visits revealed many reasons for delays. The 15 projects we reviewed
            were in varying stages of completion when we visited them in August and
            September 2010. Reasons included manufacturing delays, companies ceasing
            operations, and deverification of emission reduction technologies.

            When allowing grant extensions, EPA did not ensure that new schedules for
            completing the projects were put in place. In 3 of 15 instances, EPA approved
            grant extensions, although the recipient had not updated the timeline for all
            delayed projects. In each of these cases, the recipients also did not obligate
            funding to subrecipients, even though the grants were awarded over 1 year prior.
            For example, after receiving the grant, one recipient found that it could not
            complete the original activities that were intended. Even though EPA approved a
            no-cost extension for the recipient in June 2010, as of December 1, 2010, EPA
            regional staff were still working with the recipient to develop a workplan for
            using the funds. In another grant, the recipient submitted schedules for some of
            the projects but, for others, the workplan stated that the milestones were still
            being negotiated. While EPA allowed an extension for the grant until September
            30, 2011, lack of a specific schedule provides limited assurance that the project
            will be completed timely.


11-R-0179                                                                                       4
            One of the internal controls EPA set up to oversee and manage grants did not
            accurately convey project status of Recovery Act DERA projects. EPA developed
            an electronic Post Award Baseline Tracking Tool to assist in the implementation
            of baseline monitoring. In 10 cases, project officers indicated in programmatic
            baseline monitoring reports that grants were progressing according to agreed-
            upon milestones. However, these 10 recipients communicated delays in their
            progress reports. In Region 4, five out of seven administrative baseline
            monitoring reports did not recommend amending the grant even though the
            recipient had reported delays to the projects. Project officers did not identify
            delays in baseline monitoring reports even though recipients reported that projects
            were delayed. Project officers did not institute corrective action plans to respond
            appropriately to those delays. Project officers considered no-cost time extensions
            with new milestone dates to be sufficient corrective action.

            DERA Viewed Extensions as Appropriate Corrective Actions

            EPA’s project officers did not use the Post Award Baseline Tracking Tool to
            identify and take action to reduce the impact of project delays because they
            interpreted the tracking tool questions as being unconnected to established
            milestones. While project officers knew about project delays, DERA personnel
            believed that the delays were not within the recipients’ control and that no-cost
            time extensions on the grants were sufficient corrective actions.

            In the DERA strategy submitted to OMB in May 2009, EPA identified September
            30, 2010, as the initial project period for the grants. Correspondingly, EPA
            identified September 30, 2010, as the project end period in the grants. In a
            December 2009 review, ARRA – Financial and Operational Review (FOR)
            Report Diesel Emission (DERA) Grants, OAR stated that its expectation was that
            only 40 percent of the funds would be expended by that date. DERA personnel at
            EPA headquarters told us that since expenditures were on track to reach 40
            percent by September 30, 2010, project progress was not a problem.

            Delayed Grants Diminish Effectiveness of Recovery Act

            The conditions the OIG identified may result in recipients not accomplishing their
            projects within the project period specified in the grant agreement. When EPA’s
            recipient monitoring reports have incorrect information and reports do not
            accurately reflect project status, the database does not accurately communicate
            information to management. Inaccurate information impedes effective
            management and oversight of the grants. The database is the primary way
            management can receive information on grant status.

            When Recovery Act funds are not spent timely and corrective action plans are not
            established, the projected number of jobs created or retained is reduced or
            delayed, and environmental outputs and outcomes are delayed. As of June 30,



11-R-0179                                                                                       5
            2010, the 15 grant recipients we reviewed reported only 22.82 jobs being created
            or retained on the Recovery.gov website. In their applications, the recipients
            estimated creating or retaining about 554 jobs. (OMB revised its guidance on
            calculating jobs after applications were submitted; this revision may account for
            some of the difference.) Due to project delays, expected environmental outcomes
            such as carbon monoxide and nitrogen oxide reductions (diesel emission
            pollutants) are not realized.

Recommendations
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

                   1.	 Revise the baseline monitoring report questions and corresponding
                       guidance so that project officers and grants specialists understand what
                       information is required and how EPA uses the reports to monitor
                       progress.

            We recommend that the Assistant Administrator for Air and Radiation ensure that
            project officers:

                   2.	 Review the grants that received no-cost time extensions and verify that
                       revised project timelines were established. If updated timelines were
                       not established, have recipients submit the timelines when submitting
                       their next quarterly reports.

                   3.	 Continuously document delays in baseline and advanced monitoring
                       reports for Recovery Act DERA grants. Update milestones and
                       institute corrective action plans when delays occur.

                   4.	 Establish a process to identify programmatic baseline monitoring
                       reports project officers submit for the quarter ending December 31,
                       2010, that do not accurately record project status. Where delays are not
                       accurately reported, require project officers to revise the baseline
                       monitoring reports.

                   5.	 Using the information in the recipient monitoring database, regularly
                       provide reports to management on progress of projects and status of
                       corrective action plans until the Recovery Act grants are completed.

Agency Response and OIG Comment
            In its response to recommendation 1 in the draft report, the Office of
            Administration and Resources Management (OARM) noted that it had revised the
            Administrative Baseline Review Report Questionnaire for grants specialists and


11-R-0179                                                                                       6
            had prepared written guidance for completing the questionnaire. OARM told us it
            shared these documents with regional personnel and trained grants specialists in
            the Office of Grants and Debarment on the proper use of these documents. In
            addition, a Grants Management Plan workgroup is revising the Programmatic
            Baseline Review Report Questionnaire and is working to ensure that project
            officers understand what information is required and how it will be used. OARM
            anticipates that this task will be completed by December 31, 2011.

            In its response to recommendations 2–5 in the draft report, OAR stated that it is in
            the process of taking a host of measures to improve guidance and oversight. For
            example, OAR reviewed the grants identified by the OIG as receiving no-cost
            time extensions and confirmed with each project officer of the identified grants
            that updated project timelines have been submitted and are in the grant file. OAR
            provided documentation showing that it is using a monthly survey to monitor no-
            cost time extensions. OAR pledged to document delays in baseline and advanced
            monitoring reports, and affirmed that it has established a process to identify
            December 31, 2010, baseline monitoring reports that did not accurately reflect
            project status. Finally, OAR will regularly collect data on the status of Recovery
            Act grants and monitor the status of corrective action plans. EPA’s summary of
            the corrective actions and milestone dates is shown in appendix B.

            The completed and planned actions that OAR and OARM presented will address
            the finding and recommendations in the report.




11-R-0179                                                                                      7
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed    Agreed-To
    No.      No.                          Subject                            Status1       Action Official          Date      Amount      Amount

     1        6     Revise the baseline monitoring report questions            O       Assistant Administrator   12/31/2011
                    and corresponding guidance so that project officers                 for Administration and
                    and grants specialists understand what information                 Resources Management
                    is required and how EPA uses the reports to
                    monitor progress.

     2        6     Ensure that project officers review the grants that        C       Assistant Administrator   03/02/2011
                    received no-cost time extensions and verify that                    for Air and Radiation
                    revised project timelines were established. If
                    updated timelines were not established, have
                    recipients submit the timelines when submitting
                    their next quarterly reports.

     3        6     Ensure that project officers continuously document         O       Assistant Administrator   12/31/2011
                    delays in baseline and advanced monitoring                          for Air and Radiation
                    reports for Recovery Act DERA grants. Update
                    milestones and institute corrective action plans
                    when delays occur.

     4        6     Ensure that project officers establish a process to        C       Assistant Administrator   03/02/2011
                    identify programmatic baseline monitoring reports                   for Air and Radiation
                    project officers submit for the quarter ending
                    December 31, 2010, that do not accurately record
                    project status. Where delays are not accurately
                    reported, require project officers to revise the
                    baseline monitoring reports.

     5        6     Ensure that project officers, using the information in     O       Assistant Administrator   12/31/2011
                    the recipient monitoring database, regularly provide                for Air and Radiation
                    reports to management on progress of projects and
                    status of corrective action plans until the Recovery
                    Act grants are completed.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




11-R-0179                                                                                                                                            8
                                                                                   Appendix A

                    Details on Scope and Methodology

We obtained the universe of DERA Recovery Act Clean Diesel Funding Assistance Program
grants as of June 30, 2010, from EPA’s accounting system using the EPA Office of the Chief
Financial Officer Reporting and Business Intelligence Tool (ORBIT). The universe for DERA
State and National Funding Assistance Program grants comprised 51 state grants totaling
$88 million and 89 national grants totaling $156 million, for a combined total of $244 million in
awards under the two programs. Using the information, we calculated the percent expended for
each grant. We obtained the project period end dates for each grant from EPA’s Financial Data
Warehouse and Integrated Grants Management System. Our selection criteria included all grants
with less than 10 percent of funds expended as of June 30, 2010, and a project period end date of
September 30, 2010. We combined the financial data and the project period data for the grants
and excluded all grants that did not meet our selection criteria. The remaining population
consisted of 49 DERA Recovery Act state and national grants totaling $101.4 million.

To select our audit samples, we sorted the 49 grants and calculated the number of grants in each
region. We selected Regions 3 and 4 for review because the two regions had the greatest number
of grants with less than 10 percent expended and a project period end date of September 30,
2010. The 15 grants we reviewed in Regions 3 and 4 totaled $27.8 million with expenditures of
$1.13 million as of June 30, 2010. See table A-1 for details.

 Table A-1: DERA Recovery Act grants
                                                                              Expended as of
  DERA grants                                    Number     Grant amount       June 30, 2010
  Regions 3 and 4                                  15          $27,841,587          $1,127,575
  Grants with < 10% spent and project end date     49          101,437,442           3,436,332
  of 9/30/2010
 Source: OIG analysis.

We developed questions and reviewed documentation to determine the status of and
impediments to project progress. We conducted interviews with EPA DERA personnel in
Regions 3 and 4, headquarters, and grant recipients. We examined project officer files, baseline
and advanced monitoring reports, recipient progress reports, and Recovery.gov quarterly reports.
We also performed site visits and conducted interviews with all but 1 of the 15 DERA grant
recipients in Regions 3 and 4. We conducted one interview by telephone due to the grant
recipient’s location. We performed the audit from July 2010 to February 2011.

Internal Controls
We assessed EPA’s management controls related to project management of DERA Recovery Act
grants. We identified DERA’s internal controls pertaining to oversight of Recovery Act grants in
EPA’s Recovery Act Stewardship Plan, the DERA Recovery Act Program Plan, and EPA’s
Recovery Act Assistance Agreement Post-Award Monitoring Strategy. We examined EPA DERA


11-R-0179                                                                                        9
internal control reviews and EPA’s fiscal year 2010 Federal Managers’ Financial Integrity Act
Assurance Letters for the applicable program offices and regions to identify any weaknesses
related to project management of Recovery Act DERA grants. To assess internal controls related
to EPA’s Financial Data Warehouse and ORBIT, we relied on reviews conducted during the
audit of EPA’s fiscal year 2009 financial statements. The audit work concluded that we could
rely on these systems to produce accurate data.

Prior Reviews
We identified two prior EPA OIG reports related to DERA, one issued by the Office of Audit
and the other issued by the Office of Program Evaluation. The Office of Audit issued Report No.
10-R-0082, EPA Maximized Competition for Recovery Act Grants under the National Clean
Diesel Funding Assistance Program, on March 23, 2010. This report determined that the
competition process DERA used to award Recovery Act grants promoted competition to the
maximum extent possible and met Recovery Act goals and requirements. The Office of Program
Evaluation issued Report No. 11-R-0141, EPA Should Improve Guidance and Oversight to
Ensure Effective Recovery Act-Funded Diesel Emissions Reduction Act Activities, on
March 1, 2011. This report determined that EPA did not clearly describe its responsibilities in
the terms and conditions of Recovery Act-funded assistance agreements.




11-R-0179                                                                                    10
                                                                                   Appendix B

                  Agency Response to Draft Report

                                         Mar – 8 2011

MEMORANDUM

SUBJECT:      Office of Air and Radiation’s (OAR) Response to OIG Draft Report EPA Needs
              to Take Action to Reduce the Impact of Project Delays for Recovery Act Diesel
              Emission Reduction Act Grants, Project No. OA-FY10-0178

FROM:         Gina McCarthy
              Assistant Administrator

TO:           Melissa Heist
              Assistant Inspector General for Audits


        Thank you for the opportunity to comment on the Office of Inspector General (OIG) draft
report, EPA Needs to Take Action to Reduce the Impact of Project Delays for Recovery Act
Diesel Emission Reduction Act Grants, Project No. OA-FY10-0178, dated February 1, 2011,
which focused on grants management tools to identify and mitigate project delays in American
Recovery and Reinvestment Act of 2009 Diesel Emission Reduction Act grants. The
recommendations provided in the draft report will help OAR continue to improve its oversight
and guidance for DERA grant activities.

        EPA appreciates the effort by the OIG to thoroughly understand the grants management
process and responsibilities of DERA grants project officers, and to identify several areas for
improvements in guidance and oversight. OAR, OARM and the Regions have already begun to
work diligently to implement the recommendations in this report. A summary of the
recommendations, their associated actions and projected completion dates is attached at the end
of this document. Please see the specific recommendations below and their updates.

   1.	 Revise the baseline monitoring report questions and corresponding guidance so that the
       project officers and grant specialists understand what information is required and how
       EPA uses the reports to monitor progress.

       EPA Response: EPA accepts OIG’s recommendation to revise the baseline monitoring
       report questions and corresponding guidance for the project officers and grants
       specialist to ensure that the project officers and grants specialists understand what
       information is required and how EPA will use the reports to monitor the progress of the
       projects.




11-R-0179                                                                                        11
      In December 2010, the Office of Grants and Debarment’s (OGD) Resource
      Management Division, working with staff in Headquarters and the regions, revised the
      Administrative Baseline Review Report Questionnaire for the grants specialists. The
      revised version modified a few of the original questions for clarity, but also included
      additional questions that incorporated the new Office of Management and Budget
      (OMB) requirements and questions to determine the viability of projects and to
      determine whether unliquidated obligated funds were appropriate and necessary for
      project completion or whether these funds should be deobligated. In addition, the
      questions ensure the grants specialists understand the information required and how this
      information will be used to monitor the progress of the projects.

      Additionally in January, 2011, OGD prepared written guidance for completing the
      revised “Administrative Baseline Review Report Questionnaire,” which was shared
      with the Regional grants management officers and their staffs as well. The grants
      specialists in OGD were also provided training on the revised baseline monitoring
      report questions and guidance.

      To address OIG’s recommendation pertaining to the project officers, the Grants
      Management Plan (GMP) Goal 4 workgroup, which is working on identifying
      opportunities for streamlining the grants business process and achieving greater
      standardization, has made this recommendation a top priority for this calendar year.
      The GMP Goal 4 workgroup will solicit assistance from the grants community to
      ensure the revisions and/or additional questions in the Programmatic Baseline Review
      Report Questionnaire are appropriate and to make certain the project officers
      understand what information is required and how this information will be used to
      monitor the progress of their assigned projects. Once the revisions are made and the
      written guidance is prepared, training will be provided to the project officers. It is
      anticipated that OIG’s recommendation will be fully implemented by the end of the
      2011 calendar year.

   2.	 Review the grants that received no-cost time extensions and verify that revised project
       timelines were established. If updated timelines were not established, have recipients
       submit the timelines when submitting their next quarterly reports.

      EPA Response: OAR has reviewed the grants identified by the OIG as receiving no-
      cost time extensions and has confirmed with each Project Officer of the identified
      grants that updated project timelines have been submitted, and are in the grant file. In
      addition, OAR will continue to use the Monthly ARRA DERA survey to monitor no-
      cost time extensions (see attachment A for an example), and will remind all Project
      Officers that updated timelines are required for any project receiving a no-cost time
      extension. Please see Attachment B for supporting documentation identifying which
      projects did not initially have project timelines in the grant file, and for those projects,
      the date that a revised project timeline was submitted by the grantee.




11-R-0179                                                                                            12
   3.	 Continuously document delays in baseline and advanced monitoring reports for
       Recovery Act DERA grants. Update milestones and institute corrective action plans
       when delays occur.

       EPA Response: OAR will continuously document delays using the baseline and
       advanced monitoring reports. Once the baseline monitoring programmatic report has
       been revised by OARM (see Recommendation 1), OAR will train project officers and
       grant specialists to use the form correctly to document delays. OAR will work with
       Regions to update milestones when delays occur; plans for corrective action will be
       used when avoidable delays occur.

   4.	 Establish a process to identify programmatic baseline monitoring reports project
       officers submit for the quarter ending December 31, 2010, that do not accurately record
       project status. Where delays are not accurately reported, require project officers to
       revise the baseline monitoring reports.

       EPA Response: OAR has established a process to identify which baseline monitoring
       reports did not accurately reflect project status, as of December 31, 2010. For those
       identified projects, OAR has confirmed with each Project Officer that a revised
       programmatic baseline monitoring report was completed in the post award monitoring
       database. Please see Attachment B for supporting documentation identifying which
       baseline monitoring reports were found to be inaccurate, and confirmation that those
       reports were revised.

   5.	 Using the information in the recipient monitoring database, regularly provide reports to
       management on progress of projects, and status of corrective action plans, until the
       Recovery Act grants are completed.

       EPA Response: OAR will oversee the monitoring database and the status of corrective
       action plans. OAR will regularly collect information on the status of Recovery Act
       grants, including the status of baseline monitoring and progress toward completion of
       projects. This information will be provided to management on a regular basis, until the
       Recovery Act grants are completed. Please see Attachment C for an example of
       information that will be collected.

       A summary table of corrective actions and associated projected completion dates is
attached. Also attached are three charts. If you have any questions, please contact me or staff
member Jennifer Keller at (202) 343-9541.

Attachments




11-R-0179                                                                                         13
                   Status of Recommendations and Potential Monetary Benefits

                                                                                                                                                                                               POTENTIAL MONETARY
                                                                                     RECOMMENDATIONS                                                                                            BENEFITS (in $000s)

        Page                                                                                                                                                              Planned Completion    Claimed   Agreed-To
Rec.
  No.    No.                     Subject                               Action Official                             OAR or OARM Corrective Action                                 Date           Amount     Amount

   1     6     Revise the baseline monitoring report         Assistant Administrator for           EPA accepts OIG’s recommendation to revise the baseline                December 31, 2011        0         0
               questions and corresponding guidance so       Administration and Resources          monitoring report questions and corresponding guidance for the
               that the project officers and grant           Management                            project officers and grants specialists to ensure that the project
               specialists understand what information is                                          officers and grants specialists understand what information is
               required and how EPA uses the reports to                                            required and how EPA will use the reports to monitor the progress
               monitor progress.                                                                   of the projects.

   2     6     Review the grants that received no-cost       Assistant Administrator for Air and   OAR has reviewed the grants identified by the OIG as receiving            March 2, 2011         0         0
               time extensions and verify that revised       Radiation                             no-cost time extensions and has confirmed with each Project
               project timelines were established. If                                              Officer of the identified grants that updated project timelines have
               updated timelines were not established,                                             been submitted, and are in the grant file. In addition, OAR will
               have recipients submit the timelines when                                           continue to use the Monthly ARRA DERA survey to monitor no-
               submitting their next quarterly reports.                                            cost time extensions, and will remind al Project Officers that
                                                                                                   updated timelines are required for any project receiving a no-cost
                                                                                                   time extension.

   3     6     Continuously document delays in baseline      Assistant Administrator for Air and   OAR will continuously document delays using the baseline and           December 31, 2011        0         0
               and advanced monitoring reports for           Radiation                             advanced monitoring reports. Once the baseline monitoring
               Recovery Act DERA grants. Update                                                    programmatic report has been revised by OARM (see
               milestones and institute corrective action                                          Recommendation 1), OAR will train project officers and grant
               plans when delays occur.                                                            specialists to use the form correctly to document delays. OAR will
                                                                                                   work with Regions to update milestones when delays occur; plans
                                                                                                   for corrective action will be used when avoidable delays occur.

   4     6     Establish a process to identify               Assistant Administrator for Air and   OAR has established a process to identify which baseline                  March 2, 2011         0         0
               programmatic baseline monitoring reports      Radiation                             monitoring reports did not accurately reflect project status, as of
               project officers submit for the quarter                                             December 31, 2010. For those identified projects, OAR has
               ending December 31, 2010, that do not                                               confirmed with each Project Officer that a revised programmatic
               accurately record project status. Where                                             baseline monitoring report was completed in the post award
               delays are not accurately reported, require                                         monitoring database.
               project officers to revise the baseline
               monitoring reports.

   5     6     Using the information in the recipient        Assistant Administrator for Air and   OAR will oversee the monitoring database and the status of             December 31, 2011        0         0
               monitoring database, regularly provide        Radiation                             corrective action plans. OAR will regularly collect information on
               reports to management on progress of                                                the status of Recovery Act grants, including the status of baseline
               projects, and status of corrective action                                           monitoring and progress toward completion of projects. This
               plans, until the Recovery Act grants are                                            information will be provided to management on a regular basis,
               completed.                                                                          until the Recovery Act grants are completed.




11-R-0179                                                                                                                                                      14

                                                                                 Appendix C

                                     Distribution

Office of the Administrator
Assistant Administrator for Air and Radiation
Assistant Administrator for Administration and Resources Management
Regional Administrator, Region 3
Regional Administrator, Region 4
Agency Followup Official (the CFO)
Audit Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Transportation and Air Quality, Office of Air and Radiation
Director, Office of Grants and Debarment, Office of Administration and Resources Management
Director, Grants and Interagency Agreement Management Division, Office of Administration
       and Resources Management
Director, Office of Regional Operations
DERA Coordinator, Region 3
DERA Coordinator, Region 4
Audit Followup Coordinator, Office of Air and Radiation
Audit Followup Coordinator, Office of Administration and Resources Management
Audit Followup Coordinator, Office of Grants and Debarment, Office of Administration and
       Resources Management
Audit Followup Coordinator, Region 3
Audit Followup Coordinator, Region 4




11-R-0179                                                                                     15
